January 2007
Report No. 07-004


Interagency Agreement With the
General Services Administration for the
Infrastructure Services Contract




           AUDIT REPORT
    Material has been redacted from this
   document to protect personal privacy,
   confidential or privileged information.
                                                                                             Report No. 07-004
                                                                                                 January 2007


                                    Interagency Agreement With the General Services
                                    Administration for the Infrastructure Services Contract
                                    Results of Audit
Background and Purpose              The ISC has substantially achieved the Corporation’s desired results, as
of Audit                            presented in the Board Case. Most notably, the ISC establishes a single
                                    point of accountability and responsibility for IT infrastructure support,
In March 2004, the FDIC
                                    enabling DIT to better manage that aspect of its operations. Also, the FDIC
entered into an interagency
agreement with the General          has established mechanisms to promote improved infrastructure
Services Administration (GSA)       performance and service, and the Corporation has rated the contractor’s
for information technology (IT)     mid-term performance as excellent in that regard.
support services. Under GSA’s
Federal Systems Integration         Although DIT’s analyses showed there had been savings on labor and
Management Center (FEDSIM)          procurement, DIT needed to improve its methodology for measuring ISC
Millennia contract, GSA issued      labor costs and the savings resulting from implementing this contracting
the Infrastructure Services         method. Such improvements would provide DIT with enhanced
Contract (ISC) to SRA               performance evaluation and decision-making ability.
International, Inc. (SRA) for IT
support services for the
                                    The combination of controls established by the FDIC and those assigned to
Corporation. According to the
Board Case approved by the          FEDSIM through the interagency agreement were adequate to ensure that
FDIC’s Board of Directors, the      work under the ISC complied with the contract terms and conditions. Also,
contract consolidated 37 FDIC       DIT and FEDSIM had established controls over labor costs that focused on
infrastructure support contracts.   ensuring total spending on each ISC task area was within pre-approved
The ISC’s approved total value,     spending plans. We concluded, however, that the Corporation should
including four 1-year contract      consider providing additional oversight to decisions regarding significant
option periods, is $357 million.    contract modifications involving a reallocation of contract funding.
                                    Additionally, the Corporation should consider employing additional risk-
FEDSIM is to provide                based, cost-effective controls to monitor the hours worked by highly-paid
acquisition support for the ISC,    staff, labor rates being charged, and the mix of labor categories being billed.
while the FDIC’s Division of
                                    Employing additional cost-effective, risk-based controls in this area could
Information Technology (DIT)
has assumed responsibility for      help the Corporation avoid incurring unreasonable costs.
contract management and
oversight.                          Recommendations and Management Response

Our audit objective was to          The report makes three recommendations for DIT to strengthen its
determine whether (1) controls      monitoring and oversight by developing a more structured methodology for
are adequate to ensure that work    evaluating ISC’s performance; strengthening the oversight process for
performed under the ISC             proposed contract modifications; and establishing additional cost-effective,
complies with the contract’s        risk-based controls to ensure the reasonableness of labor costs. DIT
terms and conditions and (2) this   management concurred with the recommendations and will document the
contracting method has produced
                                    activities to provide a more structured methodology for evaluating ISC’s
the intended results.
                                    performance; establish a process for presenting and obtaining senior
                                    management approval for contract line item allocations; and develop a
To view the full report, go to      process for conducting periodic program-wide reviews to assess the
www.fdicig.gov/2007reports.asp
                                    reasonableness of the ISC staffing and management plans. Management’s
                                    planned actions are responsive to our recommendations.
                              TABLE OF CONTENTS
BACKGROUND                                                               1

RESULTS OF AUDIT                                                         5

ACHIEVEMENT OF DESIRED RESULTS                                           5

MEASURING COSTS AND SAVINGS                                              7
 Projected Savings in the ISC Board Case                                 7
 FAR Requirements for Cost Control                                       7
 Earned Value Management                                                 8
 DIT Cost Measurement and Savings Analysis                               8
 Recommendation                                                         10

INTERNAL CONTROLS                                                       11
  Internal Control Standards and FAR Requirements                       11
  Consolidated Contracting Risks and Controls                           11
  Contract Funding                                                      12
  Controls Over the Reasonableness of Labor Charges                     16
  Recommendations                                                       21

CORPORATE COMMENTS AND OIG EVALUATION                                   22

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                           23

APPENDIX II: INTENDED RESULTS AND MEASUREMENT CRITERIA                  25

APPENDIX III: OIG ANALYSIS OF SAVINGS ASSOCIATED WITH SRA               27
              CONTRACTING ACTIONS

APPENDIX IV: CORPORATION COMMENTS                                       28

APPENDIX V: MANAGEMENT RESPONSE TO RECOMMENDATIONS                      30

TABLES:
Table 1: Funding Allocation for SRA                                      2
Table 2: Summary of Achievement of Desired Results                       6
Table 3: CLIN Impact of Modification 05                                 13
Table 4: DIT Control Points Over ISC Funding                            15
Table 5: Comparison of Contract Ceiling Rates to Hourly Rates Paid      18
Table 6: Rates for Highly-Compensated Employees                         19
Table 7: Summary of Charges that Exceeded Ceiling Rates for July 2005   20
     Federal Deposit Insurance Corporation                                                             Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                               Office of Inspector General


DATE:                                   January 10, 2007

MEMORANDUM TO:                          Michael E. Bartell
                                        Chief Information Officer and Director
                                        Division of Information Technology

FROM:                                   Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                        Assistant Inspector General for Audits

SUBJECT:                                Interagency Agreement With the General Services Administration
                                        for the Infrastructure Services Contract
                                        (Report No. 07-004)


This report presents the results of the FDIC Office of Inspector General’s (OIG) audit of the
Division of Information Technology’s (DIT) efforts to provide consolidated information
technology (IT) infrastructure support for the Corporation. The consolidation was
accomplished under an Interagency Agreement with the General Services Administration
(GSA), through which a task order was issued to SRA International, Inc. (SRA) under GSA’s
Federal Systems Integration Management Center’s (FEDSIM) Millennia1 contract. The
objective of the audit was to determine whether controls are adequate to ensure that work
performed under the SRA task order, the Infrastructure Services Contract (ISC), complies
with contract terms and conditions and that this contracting method has produced the desired
results. Details on our objective, scope, and methodology are presented in Appendix I.

BACKGROUND

In March 2004, the FDIC entered into an interagency agreement (Purchase Order 04-00125-
T-DY) with FEDSIM to provide assistance in obtaining IT support services. Through its
Millennia contract, FEDSIM awarded a performance-based contract for managing the FDIC’s
infrastructure facilities, hardware, software, and systems, including, but not limited to, help desk
operations, network operations, data center support, and security operations. DIT’s overall
objectives in entering into the agreement were to have a single point of accountability to produce
an efficient and cost-effective IT infrastructure and to align its infrastructure management and




1
 The Millennia contract is a government-wide acquisition contract program consisting of nine indefinite
delivery/indefinite quantity contracts accessible to all federal government agencies. Millennia contractors provide a
broad range of IT support. SRA participates as one of the nine Millennia contactors under Contract
No. GS00T99ALD0211.
support strategy with industry best practices, including the use of a performance-based
contracting structure. For this effort, on June 28, 2004, the FDIC’s Board of Directors approved
expenditure authority for $357 million for consolidating no less than 362 existing contracts and
for obtaining hardware and software maintenance and software and equipment. The Board
approved an additional $5 million to noncompetitively extend the periods of performance of
selected infrastructure support contracts that were already in use, thus allowing these contracts to
be transitioned to the Millennia contractor chosen by FEDSIM.

Interagency Agreement                                                    The FDIC’s interagency agreement with
                                                                         FEDSIM gives FEDSIM full responsibility
According to the interagency agreement, FEDSIM is to                     for:
provide acquisition and project management support to
                                                                         •   Awarding and administering all
ensure that current and planned FDIC IT requirements                         contracts/delivery orders/task orders
are met. Under the agreement, FEDSIM is responsible                          issued to contractors.
for overseeing the planning and implementation of a                      •   Directing and monitoring the
solicitation process, proposal evaluation and award,                         contractor’s work, providing technical
contract administration, quality assurance, process                          assistance and advice to the contractor,
                                                                             attending status meetings, and
improvement, and IT tools procurements. FEDSIM                               conducting detailed reviews of all
recommended that the FDIC use the Millennia contract.                        deliverables.

Infrastructure Services Contract                                         The terms also indicated that FEDSIM may
                                                                         require client assistance and participation for
                                                                         these activities.
On September 20, 2004, on behalf of the FDIC,
FEDSIM issued the ISC3 to SRA. The ISC was
awarded in accordance with the Federal Acquisition Regulation (FAR) under GSA’s Millennia
contract for the purpose of consolidating support provided under numerous FDIC IT
infrastructure contracts. Funding was allocated as shown in Table 1.

Table 1: Funding Allocation for SRA
       Interagency Agreement                   FDIC Approval Date                        Amount
    Initial Fundinga                                  03/02/04                                  $300,000
    Additional Fundingb                               07/16/04                                $3,000,000
    Additional Fundingc                               01/13/05                              $341,541,035
           Total                                                                            $344,841,035
Source: FEDSIM Interagency Agreement/Amendment.
a
  FEDSIM’s initial fee included services for all phases of the acquisition process, including presolicitation planning
through contract award; post-award contract administration; and the issuance of delivery orders under the contract.
b
  FEDSIM was also to receive a processing fee equal to one-half of 1 percent of all payments made to FEDSIM up to
a maximum of $100,000 per payment. At the FDIC’s request, FEDSIM agreed to limit the transaction fee to
$100,000 for the life of the ISC with the understanding that FEDSIM will continue to manage the ISC for the FDIC
to contract completion and that FEDSIM shall receive revenue from the FDIC for these services.
c
  The total task order ceiling is based on funding information amended on January 13, 2005.



2
  The Board Case for the ISC identified 9 labor contracts to be consolidated and 28 “optional contracts” to be
evaluated for consolidation, for a total of 37 contracts. Ultimately, more than 37 contracts were consolidated.
3
  The ISC was issued by FEDSIM as Task Order GST0004AJM061.

                                                          2
FEDSIM Billings to the FDIC

FEDSIM bills the FDIC monthly for the actual labor and travel costs associated with providing
acquisition and project management support to ensure that current and planned FDIC IT
requirements are met. FEDSIM charges include costs for planning and implementing a
solicitation process, proposal evaluation and award, contract administration, quality assurance,
process improvement, and IT tools procurement. For the 12-month period ended December 31,
2005, the FDIC paid FEDSIM $281,492 for its services.

SRA Billing to FEDSIM

Under the ISC, SRA is reimbursed monthly for its costs (actual salaries and pass-through costs in
addition to an overhead rate). SRA’s invoice is submitted to FEDSIM for payment and is
reviewed by both FEDSIM and the FDIC. The labor portion of the ISC is a cost-plus-award-fee
task order for a 5-year period of performance (1-year base period and four optional 1-year
extensions through September 20, 2009.) The FDIC chose a 5-year-performance period to
provide operational continuity and encourage the stability of contractor personnel. SRA’s
monthly invoices are paid by FEDSIM with funds allocated by the FDIC. Costs associated with
the ISC consist of a base amount capped at the inception of the ISC and detailed in a spending
plan.

SRA Award Fee

SRA is also paid an award fee based on meeting specific performance standards. The award fee
amount is based on a judgmental evaluation by the government and is intended to provide
sufficient motivation for excellence in contract performance. The maximum award fee for each
6-month evaluation period over the 5-year term of the contract is set at about $1 million. To
encourage improved contractor performance, the ISC provides that any portion of the unearned
award fee may be rolled into the next evaluation period for the contract. An award fee of
$1,015,382 was paid to SRA for the 6-month evaluation period ended September 30, 2005. SRA
billings for services for that period totaled $17,375,670. SRA was also paid $62,619 of the
$70,977 rolled over from award period 1 for a total award of $1,078,001.

Contract Oversight Roles and Responsibilities

The FDIC has delegated to FEDSIM the authority to act as the Contracting Officer with overall
responsibility for contract management, while DIT is assigned certain contract oversight
responsibilities. To provide oversight, DIT established an ISC Oversight Committee, a Program
Lead/Program Management Officer, a Quality Assurance Coordinator, Technical Monitors, and
Subject Matter Experts. The duties of each are defined in the September 5, 2005, Technical
Monitor and Subject Matter Expert Designations, Duties, and Responsibilities.

The ISC Oversight Committee consists of the FDIC Chief Information Officer (CIO) and Deputy
CIO. This committee is responsible for approving or obtaining approval for all contract
modifications and all reallocations of funds. The committee also addresses or resolves issues


                                                3
that cannot be resolved by the project management team, require business concurrence, affect
corporate policies, and affect organizational structure.

The Program Lead is responsible for the overall management/oversight of the ISC program. The
Lead assures that ISC project goals are in line with the corporate strategy and performs ISC
Program Management Officer functions and strategic planning. Additionally, the Lead serves as
a voting member of the Award Fee Evaluation Board (AFEB) and makes decisions regarding
ISC issues.

The Program Management Officer (PMO) serves as the Technical Monitor for the ISC Program
Management Task Area. The PMO is responsible for the overall coordination of the ISC
Oversight Team and acts as liaison to FEDSIM regarding task order planning, oversight,
modifications, and issues. The PMO also serves as the Lead Point of Contact to the contractor
and facilitates problem resolution and reviews and approves contract deliverables. The PMO
submits award fee evaluation reports and provides information to the Oversight Committee, DIT
management, FEDSIM Project Team, and AFEB. Further, the PMO conducts duties as an AFEB
Chairperson and voting member.

The Quality Assurance Coordinator coordinates information and data collection with Quality
Assurance Subject Matter Experts and Technical Monitors. The Coordinator tracks
performance, reviews and approves contract deliverables, submits award fee evaluation reports,
and provides information to the FDIC’s ISC PMO and AFEB. The Coordinator also serves as a
voting member of the AFEB.

Technical Monitors, with input from the Subject Matter Experts, are responsible for:

   •   coordinating with the Contractor Task Leads,
   •   monitoring day-to-day performance,
   •   reviewing and approving contract deliverables,
   •   reviewing monthly invoices,
   •   submitting award fee evaluation reports (mid-term and final), and
   •   providing information to program management and the AFEB, as requested.

The Technical Monitors also may serve as rotating voting members or non-voting members of
the AFEB and may approve, through delegated authority, expenditures for IT goods costing less
than $25,000.

Additionally, the FDIC Division of Administration’s (DOA) Acquisition Services Branch (ASB)
is to observe the process on infrastructure-specific performance contracting with the expectation
that, in the event the interagency agreement with the FEDSIM is not renewed, ASB will be able
to assume direct responsibility for the solicitation and administration of the successor contract.
To prepare for future events and to ensure the FDIC’s contracting interests are protected, ASB
has assigned a Principal Contract Specialist to provide oversight and advice on matters
pertaining to the interagency agreement, ISC, task order, and modifications.



                                                4
RESULTS OF AUDIT

The ISC, as of September 2005, has substantially achieved the Corporation’s desired results, as
presented in the Board Case. For example, a single point of accountability and responsibility
exists for IT infrastructure support, enabling DIT to better manage that aspect of its operations.
In addition, the FDIC has established mechanisms to promote improved infrastructure
performance and service, and the Corporation has rated the contractor’s mid-term performance
as excellent in that regard (Achievement of Desired Results).

Although DIT’s analyses showed there had been savings on labor and procurement, DIT needed
to improve its methodology for measuring ISC labor costs and the savings resulting from
implementing this contracting method. Such improvements would provide DIT with enhanced
performance evaluation and decision-making ability (Measuring Costs and Savings).

The combination of controls established by FDIC and those assigned to FEDSIM through the
interagency agreement were adequate to ensure that work under the ISC complied with the
contract terms and conditions. Also, DIT and FEDSIM had established controls over labor costs
that focused on ensuring total spending on each ISC task area was within pre-approved spending
plans. We concluded, however, that the Corporation should consider additional oversight for
decisions on significant contract modifications involving reallocation of contract funding to
ensure funds are used for their intended purposes. Additionally, the Corporation should consider
employing additional risk-based, cost-effective controls to monitor the hours worked by
highly-paid staff, labor rates being charged, and the mix of labor categories being billed.
Employing additional risk-based, cost-effective controls in this area could help the Corporation
avoid incurring unreasonable costs (Internal Controls).

ACHIEVEMENT OF DESIRED RESULTS

As summarized in Table 2, on the next page, the ISC had substantially achieved the
Corporation’s desired results, as presented in the Board Case. With regard to cost reduction,
DIT’s analyses showed there had been savings on labor and procurement. However, DIT needed
to improve its methodology for measuring ISC labor costs and the savings resulting from
implementing this contracting method. We discuss DIT’s analysis of cost savings in detail in the
next section of this report.




                                                 5
Table 2: Summary of Achievement of Desired Results
 Intended Result                          Result Achieved

 1. Single point of accountability and    Yes. SRA was accountable for all aspects of IT infrastructure support, thus
 responsibility for contractor            facilitating DIT’s ability to manage ISC as a performance-based contract.
 performance.
                                          FEDSIM was accountable for providing acquisition and project
                                          management support.
 2. Results-based contract                Yes. The FDIC contracted for results-based contract administration. The
 administration, including                FDIC has assumed the FEDSIM’s responsibility for technical monitoring
 performance metrics.                     and subject matter expertise, thereby reducing the FEDSIM’s hourly
                                          oversight charges.
 3. Improved infrastructure               Yes. SRA was awarded for improved infrastructure performance and
 performance and service.                 service through semiannual award fee evaluations conducted jointly by the
                                          FDIC and FEDSIM. The most recent mid-term evaluation, dated
                                          August 17, 2006, credited SRA with identifying best practices and process
                                          improvements and making strategic recommendations. It also noted that
                                          SRA had improved system stability and decreased down time while being
                                          proactive in developing and implementing solutions. Further, the
                                          evaluation noted that SRA’s Help Desk performance, according to an
                                          independent assessment, continued to be higher than the industry average.
 4. A long-term relationship that         Yes. The contracting period with renewal options is for 5 years. The award
 shares risk, motivates the contractor,   fee program serves to motivate contractor performance. For the mid-term
 and identifies and implements            rating period, April 1, 2006 through June 2006, the FDIC rated SRA’s
 industry best practices.                 overall performance as “Excellent.”
 5. Continuing technology                 Yes. SRA’s overall performance was rated above average with no serious
 refreshment and innovation in            nonconformance, delays, or cost issues. Innovation was rated as improving
 response to contract incentives.         during the first year of the 5-year contract.
 6. Reduced contractor turnover and       Yes. Prior to the ISC, multiple contracts were issued predominately as
 longer-term retention of                 short-term (1 base year, 2 option years) contracts that terminated at various
 knowledgeable contractor staff.          times. DIT expects there will be individual turnover in areas as SRA strives
                                          to find the best fit of talent to meet the FDIC’s requirements and as
                                          technology progresses.
 7. Cost reduction resulting from         Partially. DIT prepared a cost-savings analysis for equipment and an
 increased purchasing power and           analysis of contract labor. However, we could not verify DIT’s claimed
 elimination of inefficiencies in         cost savings. DIT planned to prepare a cost-savings analysis to show
 overlapping contract scopes.             projected staff reductions for DIT and ASB associated with managing the
                                          consolidated Millennia contract compared to managing the 36 individual
                                          contracts.
Source: Board Case and OIG Analysis.



 The intended results expected to be derived from using the GSA Millennia contract, the
 methodology DIT uses to measure those results, and whether the results have been achieved are
 detailed in Appendix II.




                                                            6
MEASURING COSTS AND SAVINGS

Although DIT’s analyses showed there have been savings on labor and procurements, DIT
needed to improve its methodology for measuring ISC costs and the savings resulting from
implementing this contracting approach. The methodology for cost analyses needed to establish:
a baseline that could be adjusted for changing requirements, an analysis of costs attributable to
overseeing the ISC compared to the costs for the prior contracts, and an analysis of procurement
savings solely attributable to the ISC. Such improvements would provide DIT with enhanced
performance evaluation and decision-making ability.

Projected Savings in the ISC Board Case

In the Board Case for Consolidated Infrastructure Contract Expenditure Authority Request,
dated May 24, 2004, DIT reported that consolidation of the IT infrastructure contracts into the
single ISC was projected to save approximately $1.6 million annually or $8.5 million on a net-
present-value basis over the 5-year life of the contract. Savings were categorized as reduced
contract expenses and FDIC staffing costs.

  y   Reduced Contract Expenses – DIT estimated that vendor efficiencies resulting from
      contract consolidation would result in a reduction in direct infrastructure contract expenses
      of approximately $1.3 million annually, or at least $6.7 million on a net-present-value
      basis over the 5-year life of the contract. These savings were based on the projected
      contractor staffing reductions made possible by contract consolidation.

  y   Reduced FDIC Staffing Costs – DIT projected staff savings for DIT and ASB of about 2
      to 5 staff years annually due to the reduced workload associated with contract solicitation
      and contract administration/oversight in a single-contract environment. DIT estimated
      that this would result in a reduction in salary and benefits expenses of approximately
      $365,000 annually, or $1.8 million on a net-present-value basis over the 5-year life of the
      contract.

Other potential savings were included in the Board Case for the contract. Specifically, DIT
noted that the contract consolidation effort applied only to existing contracted work (as of
May 24, 2004), not work performed by FDIC staff. At the time the Board Case was presented,
DIT was analyzing the infrastructure work being performed by FDIC staff to decide whether to
outsource some of the infrastructure functions.

FAR Requirements for Cost Control

FEDSIM awarded the Millennia contract under the FAR, which specifies in sections 16.301-3
and 16-405-2(c) that cost-reimbursement-type contracts, including cost-plus-award-fee contracts,
may be used only when appropriate government surveillance will provide reasonable assurance
that efficient methods and effective cost controls are used. Additionally, FAR section 16.401
emphasizes that incentive contracts should discourage contractor inefficiency and waste.




                                                7
Further, FAR section 34.201 states, in general, that an Earned Value Management System
(EVMS), as described below, is required for major acquisitions for development. The
government may also require an EVMS for other acquisitions, in accordance with agency
procedures.

Earned Value Management

Earned Value Management (EVM) is a principled approach to establishing and managing
acquisition and project performance metrics. It is a method of determining a project’s status by
comparing the time-phased value of work planned to the value of the work achieved and actual
costs expended. The key to an effective EVMS is the ability to allocate the budgeted cost of
work to be performed over the scheduled period of performance for a cost account that, in turn,
is directly related to the contract work breakdown structure. EVM integrates the evaluation of
the project scope of work, schedule, and budget to optimize project planning and control. EVM
is one method to monitor a project’s progress in terms of cost and schedule, which provides
insights into performance.

OMB issued Memorandum M-05-23, Improving Information Technology (IT) Project Planning
and Execution, dated August 4, 2005, which required most federal agencies to use an EVMS for
all new major IT projects, ongoing major IT developmental projects, and high-risk projects to
better ensure improved execution and performance as well as promote more effective oversight.
The OMB memorandum required agencies to develop EVMS policies no later than
December 31, 2005. The memorandum also offered information on resources and training to
assist in developing and implementing EVMS policies. We confirmed that the FDIC is not
required to follow the OMB memorandum. However, EVM is an effective way to manage and
assess project performance.

DIT Cost Measurement and Savings Analysis

At the time we began our audit, DIT had not performed an analysis of ISC costs and cost
savings. While mindful of measuring the benefits of the ISC, DIT stated that the contract was
just over 1 year old and that an early analysis would not be completely reliable because
contractor staffing and task requirements needed to stabilize. However, during the audit, DIT
and SRA prepared analyses for the labor and procurement costs for the first year of the contract.
DIT had also planned to perform an analysis of labor costs incurred for oversight and
procurement personnel before and after the consolidation of the 36 contracts. DIT prepared two
analyses to determine the savings derived from the first year of the ISC. The analyses showed
that without considering anticipated reductions in FDIC staffing, first-year cost savings exceeded
projected annual savings of $1.3 million, as set forth in the Board Case, for labor expenses and
purchases. A discussion of DIT’s analysis and methodology follows.

Analysis of First-Year Labor Costs

DIT prepared an analysis to compare the ISC’s 2005 actual labor costs with the applicable
portion of DIT’s 2004 infrastructure operations budget to determine whether the contract had
achieved the $1.3 million in projected annual savings set forth in the Board Case. According to

                                                8
the analysis, subsequent to budget formulation, DIT estimated there would be $2.6 million in
additional labor costs for outsourcing various infrastructure activities. In addition, DIT incurred
actual costs of approximately $1.0 million on new or special items such as establishing a new
disaster recovery facility in Richmond, Virginia; support for the Hurricane Katrina call center;
and the initiation of FDICconnect Help Desk activities. Therefore, DIT adjusted the baseline for
comparing actual 2005 labor costs to the 2004 infrastructure operations budget from
$23.3 million to about $27.0 million.

When DIT compared the adjusted baseline to the actual labor expenses for 2005, DIT determined
that the estimated savings totaled $1.8 million (adjusted baseline of $27.0 million less actual
expenses of $25.2 million). DIT’s estimate of actual labor cost savings exceeds the projected
savings in the Board Case by about $500,000 ($1.8 million less $1.3 million). However, DIT did
not allocate the $3.6 million in estimated costs for the unanticipated activities to specific task
areas in its budget or track the actual costs of those activities against those task areas. As a
result, DIT’s analysis did not allow for a full comparison of budgeted and actual costs. Further,
the precise nature and cost of activities within specific task areas was not readily apparent. We
were thus unable to validate DIT’s estimated savings. An EVMS or alternative, structured
means used to measure actual costs to a baseline budget that would be adjusted as requirements
changed would facilitate a more efficient and effective assessment of the ISC’s impact on
efficiency.

We also reviewed SRA’s original and revised spending plans. Actual labor costs increased for
the base year, and an increase totaling $23 million had been budgeted for all option years. The
maximum amount of the ISC had not increased, but costs were reallocated among task areas.
Without a comparison of original budgets and amounts spent to activities planned and
accomplished, DIT could not determine whether the ISC contractor was efficiently performing
the work. Further, DIT ran the risk of (1) running out of funds for other tasks through
reallocation of costs and (2) expending all of the allocated funding for the ISC prior to the end of
the 5-year performance period if the division cannot effectively judge the contractor’s efficiency.

DIT’s Analysis of Labor Costs for Procurement and Oversight Costs

DIT planned to conduct an analysis of labor costs for procurement and oversight staff before and
after contract consolidation. The Board Case contained a projected annual savings of $365,000
for managing the ISC, or $1.8 million over 5 years, due to the reduction in DIT and ASB
procurement and oversight staff. DIT stated that the planned analysis could not be completed as
part of the 2005 cost analysis because the DIT reorganization and staffing realignment was not
completed until September 2005. At the time of our review, DIT had planned to prepare this
analysis in 2006 but recognized the difficulty in doing so because the costs associated with
managing the individual contracts that preceded the SRA contract had not been captured for
comparison purposes.

At our exit conference, DIT officials indicated that SRA has been instrumental in establishing a
process for requesting and conducting procurement of IT goods and services that has resulted in
lower costs, faster delivery, and quantity discounts. In addition, DIT provided information dated
October 23, 2006 from SRA regarding the average processing times for carrying out

                                                 9
procurements. Although the information does not compare current processing times to those that
existed prior to the ISC, it does show that the average procurement time for micro-procurements
over the 6-month period ending September 30, 2006 was less than 10 days, and the average time
for competitive procurements was less than 15 days.

DIT’s Analysis of Procurement Costs

DIT also prepared an analysis of costs for procurements completed for the period May-
December 2005. DIT identified savings of $964,866 attributable to SRA for recurring
procurements such as software licenses, deactivated services, wireless services, and maintenance
renewals. (See Appendix III for additional details on the DIT-identified savings.) Based on our
review, a majority of these savings had been achieved through the ordinary course of
requirements analysis, competition, and contract negotiation. Nevertheless, it was DIT’s view
that the savings were largely attributable to the synergy of SRA’s technical, asset management,
and procurement knowledge.

Use of EVMS for the ISC

Although the ISC, as originated, required SRA to use an EVMS, FEDSIM deleted the
requirement as part of Modification PS01, dated November 05, 2004. The DIT PMO stated that
DIT considered using EVM but determined that the EVM methodology applies more
appropriately to development projects rather than ongoing infrastructure support services
provided under the ISC. Additionally, DIT officials stated that they were more concerned with
the overall cost reasonableness than in a comparison of costs to activities. DIT further noted that
EVM would have added significant cost to the ISC contract.

In our view, applying EVM or another structured means of measuring costs and performance
would enable DIT to better assess the ISC’s effectiveness. An EVMS or similar system would
provide a basis for comparing time-phased budgeted and actual costs for work planned and work
performed, and DIT would be better able to assess ISC accomplishments.

Recommendation

We recommend that the Director, DIT:

1. Develop a more structured methodology for evaluating the performance of the ISC to ensure
   that the contract is meeting intended results. This methodology should include:

   y establishing a budgeted cost of labor, by activity, that is compared to actual labor costs
     over the scheduled period of performance of the activity, and
   y updating the baseline of budgeted cost as requirements change.




                                                10
INTERNAL CONTROLS

The combination of controls established by the FDIC and those assigned to FEDSIM through the
interagency agreement were adequate to ensure that work under the ISC complied with the
contract terms and conditions. Further, DIT and FEDSIM have also established controls over
labor costs that focused on ensuring total spending on each task area under the ISC was within
pre-approved spending plans. However, we concluded that the Corporation should consider:

    •   providing additional oversight for decisions on significant contract modifications
        involving reallocations of contract funding, and
    •   employing additional risk-based, cost-effective controls to monitor the mix of labor
        categories and labor rates utilized to fulfill task order requirements and the need for, and
        use of, highly paid staff in each labor category.

These controls will help to ensure that contract funds are used for intended purposes and avoid
incurring unreasonable costs.

Internal Control Standards and FAR Requirements

The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government characterize internal control as a major part of managing an organization. Internal
control comprises the plans, methods, and procedures used to meet mission, goals, and objectives
and in doing so, supports performance-based management. Internal controls provide reasonable
assurance that objectives are being achieved in relation to effectiveness and efficiency of
operations, including the use of the resources and reliability of financial reporting, including
reports on budget execution. Internal controls should be designed and implemented based on the
related cost and benefits.

As stated earlier, FEDSIM awarded the Millennia contract under the FAR, which specifies in
sections 16.301-3 and 16-405-2(c) that cost-reimbursement-type contracts, including cost-plus-
award-fee contracts, may be used only when appropriate government surveillance will provide
reasonable assurance that efficient methods and effective cost controls are used.

Consolidated Contracting Risks and Controls

DIT identified the following three risks in the Board Case, seeking approval of a consolidated
infrastructure contract:

   y little experience in managing or monitoring performance-based contracts,
   y exacerbation of any performance issues by dependency on one contractor, and
   y increased contract costs because DIT has to reimburse actual costs.

DIT relied on the FEDSIM’s extensive experience with large-scale, performance-based award
fee contracts to provide the support and guidance for establishing and monitoring the FEDSIM
performance-based contract. With assistance from the FEDSIM, DIT had established controls
that provide oversight of the contractor’s performance and limit the risk of dependency on one

                                                 11
contractor. With regard to increased contract costs, DIT had implemented the controls described
below.

Project Management Plan

The ISC required SRA to develop a Project Management Plan (PMP) that was based on SRA’s
proposal for accomplishing the requirements of each required task. The plan was required to
contain project management information such as milestones, levels of effort, organization, risk
mitigation strategy, and budget information. SRA submitted budget information in the form of a
spending plan that, on a monthly basis, compares planned costs to actual costs. The PMP was
used as the foundation for the Monthly Status Report, which is described below.

Reports, Meetings, and Other Controls

Much of DIT’s oversight activity, in addition to its daily contact with SRA staff, was carried out
through the review of monthly and quarterly reports prepared by SRA and submitted to DIT, and
through recurring meetings Depending on the task, such reports and meetings could include the
following:

  y    Monthly Project/Activity Status Report. These reports included the project activity,
       status, and issues for each task area.

  y    Monthly Status Report. The reports contained summaries of the management and
       technical progress to date and provided the current task order accounting information,
       including milestones and cost, total billed hours, burdened cost, award fee, items
       purchased for the government, software purchased and all costs associated with providing
       infrastructure security. The reports also contained the proposed spending plan for the
       following month, which, among other information, included labor-hour estimates and
       rates for individuals expected to work on the contract.

  y    Quarterly Program Reviews (QPR). The QPR focuses on a high-level presentation of
       information already discussed and presented in other reports. The QPR included current
       task order financial status, anticipated task order financial status, current task order
       performance metrics, mitigation plans for under-performing areas, and other issues and
       concerns.

  y    Monthly Budget Meetings. SRA provided a management and financial analysis that
       shows the underlying detail data and calculations regarding performance under the task
       order.

  y    Problem Notifications. SRA submitted Problem Notification Reports to notify the
       Contracting Officer of all task order issues such as potential cost overruns/impacts and
       changed or incorrect assumptions for task orders.




                                                12
 Contract Funding

 DIT had established adequate controls over SRA’s schedule and performance and ensuring total
 spending was within proposed spending plans. However, DIT and FEDSIM could improve
 controls for monitoring contract funding. Significant reallocations have already been made to
 the total contract spending plan to cover unexpected labor cost increases. For example, we
 observed that DIT processed Modification 05 to the ISC in August 2005 to reallocate $23 million
 in contract funding from contract line item numbers (CLIN) for hardware and software
 maintenance and technical refresh4 to contractor and subcontractor labor categories. Table 3
 presents information about the modification.

Table 3: CLIN Impact of Modification 05 (in millions)
                                      Original      Modification
 CLINs                               Contract       05 Changes                   Rationale for Change
                                    (September        (August
                                       2004)           2005)
 CLIN 0001 Labor                           $99.5              $12.9   Information security staffing level of effort
                                                                      was greater than SRA anticipated.
 CLIN 0004b New category for                  $0              $10.2   Local temporary support for short-term
 subcontract labor not subject to                                     special projects, surge support for
 cost award fee                                                       technology deployments.
 CLIN 0005 Technology Refresh                $75              ($11)   Level of effort implied in initial ceilings was
 CLIN 0006 Hardware/Software             $124.5            ($12.1)    less than originally determined. DIT
 Maintenance                                                          anticipated that the FDIC would gain
                                                                      significant cost savings on
                                                                      hardware/software over the life of the ISC.
 All other CLINs                           $42.7                $0
 Total Contract                          $341.7                 $0
Source: DIT.



 Section G.10 of the ISC allows for the modification of CLINs provided there is adequate
 justification and authorization for such change. In this regard, DIT provided a July 19, 2005
 Memorandum for the Record (M061 MOD 05 CLIN 0001 Ceiling Realignment Justification and
 Explanation) that presented a detailed rationale for the increased labor requirements.

 DIT representatives explained that DIT did not use the ISC to purchase IT equipment until
 June 2005 (9 to 10 months into the ISC) because: (1) the National Treasury Employees Union
 (NTEU) received a 60- to 90-day period to evaluate labor issues associated with having contract
 employees (SRA) perform equipment purchase functions that FDIC employees had previously
 performed, and (2) it took DIT and SRA an additional 6 months to implement ISC equipment
 purchase procedures and processes. Instead, DIT stated that equipment purchases, including
 purchases for technical refresh, were made outside of the ISC on other contracts. In
 October 2005, 1 year into the ISC, FEDSIM reported that the FDIC had $14.6 and $10.7 million
 4
  The infrastructure modernization component, or technical refresh, is the life-cycle replacement of various major
 components in the FDIC's technical infrastructure, including the mainframe, midrange servers, local area network
 servers, storage, workstations, telephone and video systems, and data wide-area network.

                                                         13
remaining for 2005 in the technical refresh and hardware/software maintenance CLINs,
respectively. DIT concluded that because it had not used the ISC to purchase IT equipment,
technical refresh and hardware/software maintenance funding was effectively made available for
reallocation to cover increased labor costs. Further, as shown above, DIT concluded that the
reallocation had no impact on the total contract amount on the ISC contract. However, since
requirements were met through the use of other contracts, an alternative to this reallocation
would have been to reduce the total price or ceiling on the ISC. We saw no evidence that FDIC
management had considered this approach.

Due to the significance of the funding involved in this contract modification, we also analyzed
the controls associated with processing such a modification. Table 4, on the next page, describes
each of those control points.




                                               14
Table 4: DIT Control Points Over ISC Funding
 Control Point           Description
 Infrastructure          Among other things, the ISC Oversight Committee approves, or obtains approval for, all
 Oversight               contract modifications and all fund reallocations among CLINs. DIT stated that the decision to
 Committee               reallocate contract estimates between CLINs had been discussed by the ISC Oversight
                         Committee.
 Contract                The ISC requires “proper contractor justification and Government approvals” and
 Modification            documentation of the rationale for reallocating contract funds between CLINs. DIT officials
 Process                 noted that the reallocation was supported by a contract modification approved by FEDSIM.
 Procurement             SRA developed the Framework to ensure that IT purchases that SRA makes on the
 Planning and            Corporation’s behalf reflect FDIC management’s priorities and needs. The primary objective
 Management              of the Framework is to compile and maintain lists of hardware, software, and other non-labor IT
 Framework               items that the FDIC plans to acquire to support its business mission. The lists, known as
 (Framework)             Procurement Rosters, are intended to help senior managers plan for upcoming purchases and
                         ensure that budgetary resources are spent in a planned and organized fashion.
 Procurement             The PMB is composed of DIT and ISC senior managers. The PMB maintains the Procurement
 Management              Rosters and meets monthly to decide which IT items should be procured by the FDIC in the
 Board (PMB)             near term and to decide the relative priority of items within a particular Procurement Roster.
 Infrastructure and      SRA also developed this 5-Year Plan for the FDIC. The purpose of the Plan is to (1) define a
 Technology              standard FDIC methodology for technical refresh; (2) establish key milestones for engineering,
 Refreshment Plan        examination of technology, and allocation of resources for orderly and cost-effective technical
 (Plan)                  refresh; and (3) provide a basis for budget estimates and strategic budget planning.
 Contract Award          The FDIC and FEDSIM have established the AFEB consisting of a chairman, who is the FDIC
 Fee Evaluation          PMO; FDIC functional area representatives; and the FEDSIM Contracting Officer’s
 Process                 Representative. The FEDSIM Contracting Officer is a non-voting advisory member of the
                         AFEB. Additional non-voting members may be a Secretariat/Recorder and Technical
                         Monitors, as deemed appropriate by the AFEB Chairman. This process helps to monitor
                         contract costs and ensure that SRA meets service-level agreements related to infrastructure
                         performance. Changes to the ISC are discussed at quarterly award fee evaluation board
                         meetings, which are attended by ASB representatives and the CIO. Periodically, the CIO,
                         Deputy CIO, and ASB also brief the Chief Operating Officer (COO) about the status of the
                         contract. Additionally, DIT is required to inform the FDIC’s Board of Directors if the contract
                         ceiling or the contract duration significantly changes.
 Corporate Budget        DIT’s corporate budget is approved by the Chief Financial Officer (CFO), COO, and the Board
 Process                 and is closely monitored by the Division of Finance (DOF). DIT noted that if the division
                         budgets an amount for equipment purchases and then does not expend that amount, DIT could
                         lose the ability to spend those funds in future budget years.
Source: DIT officials.


  DIT officials contended that sufficient controls were in place over ISC funding and technical
  refresh decisions. While we agree that the controls discussed in Table 4 should help to ensure
  that contract funds are expended in a planned and organized manner, there is an opportunity to
  further strengthen these controls to ensure funds are used for intended purposes.

  Governance Structure Over Labor Cost Increases

  Although the FDIC has a detailed governance structure for IT investments, it does not have a
  corresponding process for reviewing proposed contract modifications for significant
  reallocations of contract funding, including increases in contract labor. For example, the FDIC

                                                             15
has two primary oversight bodies for significant IT investments: the Capital Investment Review
Committee (CIRC) and the CIO Council. The CIRC monitors IT and non-IT projects valued at
$3 million or more. At its discretion, the CIRC may extend its review authority to projects
below the $3 million threshold. The CIRC is co-chaired by the CFO and CIO, and its members
include the Deputy to the Chairman, General Counsel, and FDIC division directors. The CIRC
oversees investments throughout their life cycle and provides quarterly reports to the Board of
Directors on project finances, milestones, and performance. The CIO Council, which includes
executive representatives from most divisions and offices, meets monthly to deliberate matters
relating to the use of IT within the FDIC. Council members advise the CIO on IT matters and
work together on cross-cutting issues such as enterprise architecture management and IT
investment management.

In addition, DIT has made the Board aware of significant equipment purchases under the ISC. In
this regard, in May 2006, DIT worked through DOA to issue an April 2006 memorandum
entitled, Supplemental Information to the Contract Assessment Report, to the FDIC Board,
notifying the Board of DIT’s intent to expend $6 million to purchase a large number of desktop
personal computers and computer monitors. This memorandum also noted that “[t]he approved
expenditure authority and resulting [infrastructure services] contract include the purchase of
replacement equipment totaling an estimated $75 million over the five-year period. The
replacement of this equipment was outlined in DIT’s Infrastructure Technology Refresh Plan.”

However, DIT did not have a similar oversight process for the reallocations of contract funding
on the ISC contract. Through Modification 05, DIT increased contract and subcontract labor
funding by $23 million and decreased existing technology refresh and hardware/software
maintenance funding by a corresponding amount. These labor increases were for enhanced IT
security and expenses related to the Richmond Disaster Recovery site. However, had this
increase been for a new system development project or IT equipment, it likely would have been
subject to CIRC and CIO Council reviews or subject to DIT’s delegated payment approval
authority limits.5 As a line item reallocation involving significant contract funding, however, the
contract modification resulting in the reallocation was not subject to the same oversight.

Adding controls related to contract modifications involving significant funding reallocations on
the ISC could strengthen the oversight process by ensuring that funds are used for their intended
purposes. Further, including independent divisional and office representatives on certain
oversight committees for the ISC would benefit the FDIC by providing a balanced corporate
perspective on significant contract-funding decisions.

Controls Over the Reasonableness of Labor Charges

DIT has established controls over the reasonableness of labor charges by ensuring the charges
stayed within monthly spending estimates for various task areas and by monitoring whether
average hourly rates being billed for each labor category were within the ceiling rates established
in the ISC. DIT has determined this was an appropriate approach because the ISC is a
performance-based contract, and SRA has some flexibility in staffing, organization, and

5
    Division directors had payment approval authority for non-procurement-related expenses up to $2 million.

                                                          16
implementation. However, these controls would not always identify instances in which the
FDIC is paying labor rates that are not commensurate with task order requirements.

Spending Plan Control

DIT, FEDSIM, and SRA had established an overall spending plan for the contract period that
allocates the total contract dollars into 10 task areas. This spending plan is broken down by year,
and for the current year, included labor hour estimates and rates for personnel expected to work
on the contract. DIT receives monthly invoices and monthly status reports that include current
charges and spending to date. DIT reviews this information with SRA at monthly meetings.

The monthly report shows the current month and a cumulative annual total of labor hours and
costs for personnel used on the contract but does not show the variance from individual and labor
category estimates in the annual spending plan. Further, the contractor provides only a brief
explanation of any dollar variances between actual and planned total expenditures for each task
area. DIT reviews the monthly invoices and status reports, but the review does not focus on the
hours worked by highly-paid staff, the labor rates paid to individuals, or the mix of labor
categories used. Instead, DIT uses the spending plan and monthly reports to monitor the total
spending on each task area and for determining whether incremental funding will be needed for
work that may be added.

Millennia Contract Criteria

GSA provided Millennia contractors the latitude to assign staff with various skill levels to a labor
category if they met the minimum requirements. The Millennia contract contains 17 labor
category descriptions.

The Millennia contract, Section B, Services and Prices/Costs, paragraph B.2.2.3, Ceiling Rates,
defined ceiling rates as the maximum direct labor rates (contractor site) to be proposed and/or
billed under this contract. These ceiling rates apply to cost-reimbursable orders and proposals
for fixed-price orders. The ceiling rate should anticipate the maximum technical expertise
needed over the life of the contract and is not necessarily bound by current staff.

The Millennia contract, Section B, paragraph B.2.2.4, Composite Rates, defined composite rates
as the average burdened hourly labor rate experienced by the offeror for a similar scope of work
and shall be based on current personnel in labor category descriptions. The composite rate is the
average rate based on current staff and similar tasking.

Calculation of Individual Labor Rates

Neither the Millennia contract nor the ISC provide clear guidance on the determination of
whether labor charges are reasonable. SRA computes the average rate on its monthly billing by
dividing the “Inception to Date Dollars” by the “Inception to Date Hours” to arrive at a “Billing
Rate” average for each labor category. FEDSIM and the FDIC compare the average hourly rate
for a labor category to the ISC ceiling rate for that category to determine whether billing rates are
less than the ceiling rate. We determined that the SRA billing rate average for each labor

                                                 17
category was below the applicable ceiling rate for the period we reviewed. However, we found
instances where the hourly charges for SRA employees varied by as much as $121 within a
particular labor category and where hourly charges for certain employees exceeded the ceiling
rates.

Variances in Labor Rates Within Labor Categories

DIT stated that it worked with SRA to ensure that skills and resources employed are appropriate
and that DIT has challenged SRA in the past regarding personnel who do not appear to have the
appropriate skills. However, with regard to reviewing labor rates and hours billed, FEDSIM and
DIT officials acknowledged that they focused on ensuring that total labor charges were within
annual spending plan limits and that the average labor rates for individual labor categories did
not exceed the labor category ceilings.

As shown in Table 5, the hourly rates charged within labor categories varied substantially.

Table 5: Comparison of Contract Ceiling Rates to Hourly Rates Paid




                                       Material Redacted




The FEDSIM Project Manager explained the variance in individual labor rates by stating that
vendors control the assignment of employees to Millennia labor categories, and the large
variance in rates was due to salary differences. The ISC Program Lead stated that because there
were minimum qualifications for each labor category in the Millennia contract, it was possible to
have a wide range of acceptable skill levels and hourly rates within a specific category. The
FEDSIM Project Manager stated that the flexibility contractors have to assign staff at various
skill levels, as long as they meet the minimum requirements outlined in the ISC, ensured that
contractor staff were available to satisfy FDIC requirements.

The ISC PMO stated that the application of the labor rate structure allowed for specialized
contractor staff paid at higher labor rates to be assigned to complex or high-priority tasks on an


                                                 18
as-needed basis. DIT believed that the FDIC benefited from the higher level of technical
knowledge and experience through these assignments.

We acknowledge the potential benefits of having more experienced, skilled, or qualified staff
assigned to specific labor categories as indicated by the higher labor rates. However, our
analysis showed that there was a wide range of rates charged in each labor category, and 40
percent of SRA personnel were paid 80 percent more than the ceiling rate for their labor
category. Additionally, 90 percent of SRA’s staff was billed at 60 percent more than the ceiling
rate. Therefore, over the long-term, DIT must be mindful of the risk that the FDIC may be
incurring unnecessary costs because SRA was using staff with higher salary rates than necessary
for certain task order requirements, particularly when it had implemented an invoice review
process that does not focus on individual rates and hours being paid.

Table 6 illustrates how staffing the ISC with employees compensated at higher labor rates that
may not be commensurate with task order requirements can result in higher costs to the FDIC.

Table 6: Rates for Highly-Compensated Employees




                                        Material Redacted




.



Ceiling Rates

We compared individual hourly labor rates to the ceiling rates for each labor category for the
3-month period ended September 30, 2005. The labor rates for some personnel were higher than
the ceiling rates for that labor category. Table 7, on the next page, illustrates the hourly charges
that exceeded the ceiling rates for 16 employees for the July 2005 billing period.




                                                 19
 Table 7: Summary of Charges that Exceeded Ceiling Rates for July 2005




                                        Material Redacted




In total, we identified about $30,000 paid for labor costs above the ceiling rates for the 3-month
period we reviewed. This amount projected over the 5-year life of the SRA contract could result
in payments totaling about $600,000 ($30,000 per quarter for 4 quarters per year for 5 years).

DIT stated that most of the SRA employees who had been paid rates that exceeded ceiling rates
either have been replaced with lower-paid personnel or are no longer assigned to the ISC. To
verify that corrective action had been taken, we compared a June 2006 invoice to the September
2005 invoice that was part of our initial review. We found that two employees included in our
earlier analysis were still employed at rates that exceeded the ceiling rates. We also found five
additional employees whose hourly rates exceeded the ceiling. In total, the seven employees
accounted for $8,548 in total charges over the ceiling rates on the June 2006 invoice. Compared
to our analysis of the invoices for September ($11,308), August ($3,277), and July 2005
($15,478.59), the amount spent in June for labor that exceeds the ceiling rates, on average

                                                20
($10,021), was about the same amount charged for labor exceeding the ceiling rates for the initial
period we reviewed.

DIT stated that it was very concerned about cost and that DIT and FEDSIM reviewed invoices to
ensure cost reasonableness. However, as discussed previously, DIT stated that it focused on
ensuring the average rate being paid was within the contract ceiling rate—consistent with its
interpretation of the contract terms. The Millennia contract is subject to interpretation on how
the ceiling rate is to be applied to contract billing. Paragraph B.2.2.3 of the Millennia contract
defines “Ceiling Rates” as the maximum direct labor rates to be proposed and/or billed.

We contacted GSA and determined that some Millennia contractors submit bills comparing each
employee’s labor rate to the ceiling rate for each labor category, while other contractors, like
SRA, will bill at an average rate for each labor category with the intent that the average for the
month must be below the ceiling rate for each labor category. The GSA representative stated
they take no exception to either method of computing actual labor rates.

Further, DIT stated that the FDIC was benefiting from contractor employees who may be more
highly qualified to accomplish tasks assigned within each labor category. Nevertheless, this
cost-plus-award-fee contract requires sound control of costs. Employing additional risk-based,
cost-effective controls in this area could help the Corporation avoid incurring unreasonable labor
costs.

Recommendations

We recommend that the Director, DIT:

2. Strengthen the oversight process for proposed contract modifications involving significant
   reallocation of contract funding to provide control similar to that which the Corporation has
   established for IT investment and major equipment purchase decisions.

3. Establish additional risk-based, cost-effective controls to assure that labor costs are
   reasonable for the work performed. Such controls could address monitoring:

  •   the mix of labor categories and labor rates utilized to fulfill task order requirements and
  •   the need for, and use of, highly-paid staff in each labor category.




                                                 21
CORPORATE COMMENTS AND OIG EVALUATION

On January 4, 2007, the Chief Information Officer and Director, DIT, provided a written
response to this report. DIT’s response is presented in its entirety in Appendix IV. Overall, DIT
agreed to take corrective actions that are responsive to the recommendations and are planned to
be completed by January 31, 2007. Appendix V contains a summary of management’s response
to the recommendations. The recommendations are resolved but will remain open until we have
determined that the agreed-to corrective actions have been completed and are effective.

In response to recommendation 1, DIT stated that in order to develop a more structured
methodology for evaluating the performance of the ISC for 2006 and 2007, the Infrastructure
Services Branch (ISB) has aligned the ISB budget and the ISC spending plan for labor by
activity. In addition, the ISB has established a process, to capture cost estimates for new work,
that can be used to adjust the budget baseline.

In response to recommendation 2, DIT stated that a process will be established for presenting and
obtaining senior management approval for contract line item reallocations over $5 million.

In response to recommendation 3, DIT stated that established evaluation processes and day-to-
day oversight activities assure that labor costs are reasonable for work performed. DIT intends
to further enhance controls by developing a process for conducting periodic program-wide
reviews to assess the reasonableness of the ISC staffing and management plans.




                                                22
                                                                                  APPENDIX I


                      OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of this audit was to determine whether:

   •   controls are adequate to ensure that work performed under the Millennia contract
       complies with the contract’s terms and conditions and
   •   this contracting method has produced the intended results.

To accomplish our objectives, we reviewed:

   •   the Board of Directors-approved Consolidated Infrastructure Contract Expenditure
       Authority Request submitted by the former Division of Information Resources
       Management, now the Division of Information Technology (DIT);
   •   the Interagency Agreement between the FDIC and FEDSIM;
   •   the Millennia contract awarded to SRA;
   •   the ISC issued by GSA under the FEDSIM agreement to provide information technology
       services to the FDIC;
   •   documentation supporting monitoring of the contractor’s performance;
   •   the award fee determination plan and a sample award fee determination;
   •   the FDIC’s draft report on costs savings;
   •   a sample of billings submitted by the contractor, through GSA, and approved by the
       FDIC; and
   •   a sample of billings submitted by FEDSIM and approved by the FDIC.

Also, we interviewed the DIT PMO responsible for monitoring performance under the ISC and
the FEDSIM Project Manager responsible for the general administration of the ISM.

We conducted our review from November 2005 to September 2006 in accordance with generally
accepted government auditing standards.

Internal Controls

We evaluated the effectiveness of management controls by reviewing policies and procedures,
contract documents, and documentation of contractor monitoring and by interviewing FDIC
executives and employees directly involved with the management and oversight of the contract.
Additionally, we discussed our audit results concerning FEDSIM management with
representatives from GSA’s OIG.

Validity and Reliability of Data from Computer-Based Systems

We assessed the reliability of the computer-based data provided to the FDIC from SRA’s time
and attendance system. We examined the billings for obvious errors, missing rates, rates outside
the range of the ceiling rates, and dates outside of those normally worked. As a result of the
tests, we believed we could rely on the validity of time and attendance data submitted by SRA
for billing purposes. We compared the billing rates for one quarter, July to September 2005, to

                                               23
rates contained in the Millennia contract. We did not audit the billings but determined that the
billing data were sufficiently reliable to meet our audit objectives.

Compliance With Laws and Regulations

We used the FAR provisions on performance-based contracting as criteria for evaluating how the
FDIC had been monitoring the ISC. This report identifies ways in which the FDIC could
strengthen its monitoring of the ISC and thus comply with the intent of such FAR provisions.
We also considered provisions of the Small Business Act and related regulations regarding
contract bundling. Contract bundling, in general, is the consolidation of smaller contracts into a
larger contract that is unsuitable for award to small business concerns due to the diversity, size,
specialized nature or geographic dispersion of the contracted work. We noted no significant
deficiencies given our audit objective.

Government Performance and Results Act

The FDIC’s infrastructure facilities, hardware, software, and systems support the FDIC’s mission
to preserve and promote public confidence in the U.S. financial system by providing tools for
monitoring and addressing risk to the Deposit Insurance Fund. The FDIC’s 2005 Strategic Plan
included a performance objective to complete contract consolidation, identify and realize cost
reductions, and implement help desk improvements. A full and complete quality-driven
infrastructure with support services is necessary to achieve the FDIC’s mission. The FEDSIM
interagency agreement was to provide IT support through managing and operating all of the
FDIC’s infrastructure facilities, hardware, and software.

We tested whether intended results were being achieved on the ISC. We based our assessment
on our review of GSA’s and DIT’s contractor quality reviews, which concluded that SRA’s
performance was acceptable. Additionally, we reviewed documents supporting award fee
determinations and the contractor’s self-assessment. However, we could not fully determine
whether cost savings were fully achieved as discussed in the report section entitled, Measuring
Costs and Savings.

Fraud and Illegal Acts

We were alert for fraud as we performed our audit. No instances of fraud and illegal acts came
to our attention during our audit.




                                                24
                                                                                                   APPENDIX II


                   INTENDED RESULTS AND MEASUREMENT CRITERIA


Intended Benefit         Measurement Criteria                                     Result Achieved
                                                                                  Yes/No/Partially
1. Single point of   Not measured. SRA was the            Yes. SRA was accountable for all aspects of IT infrastructure
accountability and   single point of accountability       support, eliminating at least nine labor services contracts and
responsibility for   responsible for all infrastructure   most of the other contracts supporting the FDIC’s various
contractor           functions.                           infrastructure functions, thus facilitating DIT’s ability to manage
performance.                                              the ISC as a performance-based contract.

                     Under the interagency                 FEDSIM was accountable for providing acquisition and project
                     agreement, the FEDSIM                 management support to ensure that current and planned FDIC IT
                     functions as the single point of      requirements were met. FEDSIM oversaw the planning and
                     accountability for the                implementation of the solicitation process, proposal evaluation
                     contractor’s performance.             and award, and contract administration, quality assurance, process
                                                           improvement, and IT tools procurement.
2. Results-based     Award fee determination using        Yes. The FDIC contracted for results-based contract
contract             a quality assurance surveillance     administration. The FDIC had assumed the FEDSIM’s
administration,      plan that provides the FEDSIM        responsibility for technical monitoring and subject matter
including            with measurable inspection and       expertise, thereby reducing the FEDSIM’s hourly oversight
performance          acceptance criteria.                 charges. DIT believed its monitoring would also ensure the
metrics.                                                  highest level of performance and that the ISC met the FDIC’s
                                                          requirements.

                                                          The FEDSIM was providing contract administration support such
                                                          as processing contract modifications, ensuring compliance with
                                                          the FAR, reviewing invoices in terms of contract labor rates, etc.

3. Improved          Award fee determination using        Yes. FEDSIM was the final approving authority for the award fee.
infrastructure       a quality assurance surveillance     However, the AFEB, comprised of FDIC and FEDSIM members,
performance and      plan that provides the FEDSIM        makes a recommendation based on technical-service-level
service.             with measurable inspection and       agreements and subjective evaluations. FEDSIM’s Award Fee
                     acceptance criteria.                 Determination Official then reviews the recommendation to ensure
                                                          that it is fair based on results achieved. The April through
                                                          September 2005 award fee determination recommendation,
                                                          prepared by the FDIC, noted “increased stability and improved
                                                          performance” by SRA. The most recent mid-term evaluation
                                                          dated August 17, 2006 credited SRA with identifying best
                                                          practices, process improvements, and making strategic
                                                          recommendations. The evaluation also noted that SRA had
                                                          improved system stability and decreased downtime while being
                                                          proactive in developing and implementing solutions. Further, the
                                                          evaluation noted that SRA’s Help Desk performance, according
                                                          to an independent assessment, continued to be higher than the
                                                          industry average




                                                              25
                                                                                                  APPENDIX II


 Intended Benefit         Measurement Criteria                                   Result Achieved
                                                                                 Yes/No/Partially
 4. A long-term       Award fee determination            Yes. The award fee was reduced pending anticipated improved
 relationship that    coupled with a 5-year contract     performance. The FDIC participates in recommending an award
 shares risk and      period.                            fee. Based on the recommendations, the FEDSIM had final
 motivates the                                           authority to award the fee.
 contractor and
 identifies and       Award fee determination            Yes. Overall, SRA was rated “above average” bordering on
 implements           includes specific measurement      excellent during the April 2005 through September 2005 rating
 industry best        criteria, including progress       period. DIT noted “proactive improvements” in performance and
 practices.           toward strategic goals,            stated that SRA should “continue to progress in the proactive
                      including proactive                identification of process improvements, best practices, and
                      identification of areas of         strategic recommendations.”
                      innovation.

 5. Continuing        The award fee determination        Yes. In the April through September 2005 award fee
 technology refresh   plan includes specific             determination, SRA’s overall performance was rated above
 and innovation in    measurement criteria, including    average with no serious nonconformance, delays, or cost issues.
 response to          progress toward strategic goals,   Innovation was rated as improving during the first year of the
 contract             including meeting business         5-year contract.
 incentives.          needs for capacity and
                      functionality and proactive
                      identification of areas of
                      innovation.

 6. Reduced           The 5-year contract was            Yes. DIT stated that the intent of this goal was not to measure
 contractor           evidence of reduced contract       contractor employee turnover but to avoid total contractor
 turnover and         turnover to new vendors.           turnover. Prior to the ICS, multiple contracts had been issued
 longer-term                                             predominately as short-term (1 base year, 2 option years) contracts
 retention of                                            that terminated at various times. Significant time and resources
 knowledgeable                                           were expended for the ongoing solicitation and award of
 contractor staff.                                       replacement contracts, and turnover occurred if the contracts were
                                                         awarded to new vendors.

                      Qualified personnel are            Yes. DIT expects that there would be contractor employee
                      included in the evaluation         turnover as SRA strives to find the best fit of talent to meet the
                      criteria of the Award Fee          FDIC’s requirements and as technology progresses. The
                      Determination Plan.                expectation was that performance and continuity would not be
                                                         affected as this occurred. Although we noted several instances of
                                                         negative feedback in the FDIC’s performance award
                                                         recommendations, the contractor was rated above average by
                                                         GSA, and positive feedback on performance affected by
                                                         knowledgeable staff was included in the performance award
                                                         recommendation.

 7. Cost reduction    Award Fee Determination Plan       Partially. DIT prepared a cost-savings analysis for equipment
 resulting from       Criteria                           and an analysis of contract labor. However, we could not verify
 increased                                               DIT’s claimed cost savings. DIT planned to prepare a cost-
 purchasing power                                        savings analysis to show staff reductions projected for DIT and
 and elimination of                                      ASB associated with managing the consolidated DIT contract
 inefficiencies in                                       compared to managing the 36 individual contracts.
 overlapping
 contract scopes.
Source: Board Case and OIG Analysis.



                                                             26
                                                                                       APPENDIX III


               OIG ANALYSIS OF SAVINGS ASSOCIATED WITH
                      SRA CONTRACTING ACTIONS


        Vendor                 Product          Reported Action Resulting         Reported Savings a
                              Description                in Savings
                        b
                            Licensing          Analyzed licensing needs.                        $658,021
                            Maintenance        Negotiated reduced price.                          $9,688
                            Maintenance        Comparative shopping                               $2,085
                                               resulted in lower bid.
                            Maintenance        Comparative shopping                               $1,415
                                               resulted in reduced rate.
                            Onsite support     New agreement reached.                            $21,571
                            Maintenance        Eliminated maintenance                             $2,134
                            renewal            through recommendations to
                                               the FDIC.
                            Internet circuit   Negotiated lower monthly                          $23,060
                            provider           rate with same provider.
                            Maintenance        Questioned initial quote that                     $46,354
                            renewal            included upgrade in service.
                                               Reduced cost to support                           $19,754
                                               software.
                            Maintenance        Vendor competition for best                        $7,505
                            renewal            price.
                            Wireless           SRA moved services to                            $149,100
                            services           shared plan. Negotiated
                                               lower prices on           .
                            Deactivated        SRA monitored wireless use.                       $24,179
                            services           Initiated without the FDIC’s
                                               knowledge.
        Grand Total Reported by DIT                                                            $964,866
Source: DIT Analysis of Savings on Recurring Procurements and OIG Analysis.
a
  We reviewed the nature of the reported actions and noted that many of the actions had been achieved
during the ordinary course of procurement activities. DIT was certain, however, that SRA had played an
important role in each of the actions.
b
  Since this category represents the largest savings, the OIG reviewed this item in the greatest detail. We
determined that the savings was attributed to a reduction in the number of licenses, and according to
SRA, most of the costs reductions in this category had been realized because only Software Assurance
(software maintenance) is purchased under the new contract rather than licenses and Software Assurance
that had been purchased together under the previous contract. Each license that the FDIC procured for
each product is owned in perpetuity by the FDIC. That is, once the license is purchased, the FDIC is
entitled to use the purchased version of the product forever. The FDIC must purchase maintenance,
termed Software Assurance, on a given product in order to secure version updates.




                                                   27
                       APPENDIX IV


CORPORATION COMMENTS




        28
     APPENDIX IV




29
                                                                                                                                                    APPENDIX IV



                                              MANAGEMENT RESPONSE TO RECOMMENDATIONS
     This table presents the management response on the recommendations in our report and the status of the recommendations as of the
     date of report issuance.
                                                                                                                                       Open
      Rec.                                                                    Expected             Monetary       Resolved:a            or
     Number         Corrective Action: Taken or Planned/Status             Completion Date         Benefits       Yes or No           Closedb
                   DIT believes that a more structured methodology for       January 31, 2007        $0              Yes               Open
           1       evaluating the performance of the ISC has been
                   achieved for 2006 and 2007. The ISB has aligned
                   the ISB budget and the ISC spending plan for labor
                   by activity. Additionally, ISB has established a
                   process for capturing cost estimates for new work
                   which can be used to adjust the budget baseline. DIT
                   will document these two activities.
                   DIT will establish a process for presenting and           January 31, 2007          $0             Yes              Open
           2       obtaining senior management approval for contract
                   line item reallocations over $5 million.
30




                   In addition to established evaluation processes and       January 31, 2007          $0             Yes              Open
           3       day-to-day oversight activities to assure that labor
                   costs are reasonable for work performed, DIT will
                   develop a process for conducting periodic program-
                   wide reviews to assess the reasonableness of the ISC
                   staffing and management plans.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                        as management provides an amount.
     b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
